No.

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2019

JOSE ZAMUDIO-SILVA,
Petitioner,
-y-
UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner was appointed counsel during proceedings in the Southern District

of California and while Petitioner’s case was pending before the Ninth Circuit.

-

DAVID R. SILLDORF

Law Offices of David R. Silldorf, APC
402 W. Broadway, Suite 1300

San Diego, CA 92101

(619) 326-9093

Fax: (619) 326-9095

Email: david@davidsilldorflaw.com

Dated:

Attorney for Zamudio-Silva
